2000 FIRST HORIZON BUILDING
1 65 MADISON AVENUE

BAKF,R,DONELSON
BEARMAN,CALDWELL & BERKOWITZ,PC

MEMPHIS, TENNESSEE 38103
PHONE:
FAX:

901.526.2000
901.577.2303

www.bakerdonelson.com

STEPHEN D.GOODWIN,SHAREHOLDER
Direct Dial: 901.577.2141
Direct Fax: 901.577.0734
E-Mail Address: sgoodwin@bakerdonelson.com

February 14, 2020
Via US mail and electronic filing

Scott S. Harris, Esq.
Clerk
The Supreme Court ofthe United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Wisc. Dep't ofRevenue, et al. v. Union Pacific R.R. Co., No. 19-949

Dear Mr. Harris:
I am counsel ofrecord for respondent Union Pacific Railroad Company("Union Pacific"),
in the above-captioned case and am writing to request a 30-day extension of time in which to file
a response to the petition for a writ of certiorari filed by petitioners Wisconsin Department of
Revenue and its Secretary Peter Barca, sued in his official 'capacity. The petition for a writ of
certiorari was placed on the Court's docket on January 29, 2020, and a response to the petition is
currently due on February 28, 2020. Pursuant to Supreme Court Rule 30.4, respondent Union
Pacific respectfully requests a 30-day extension oftime,to and including March 30,2020,in which
to file a response to the petition. The additional time is warranted because,in the upcoming weeks,
I have several significant professional obligations in matters pending in state and federal court as
well as previously scheduled out oftown travel. My client will also be out oftown later this month.
Counsel ofrecord for petitioner does not oppose a 30-day extension oftime.
Thank you for your consideration of this request.

Regards,
BAKER,DONELSON,BEARMAN,
CAL ELL & BERKOWITZ,PC

Step1

cc:

D. Goo win, Shareholder

Brian P. Keenan, Counsel of Record for petitioners

ALABAMA • FLORIDA • GEORGIA • LOUISIANA • MARYLAND • MISSISSIPPI • SOUTH CAROLINA • TENNESSEE • TEXAS • VIRGINIA • WASHINGTON, D.C.

